        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Audit Report

The Department of Energy's
Weatherization Assistance Program
under the American Recovery and
Reinvestment Act in the State of
Tennessee




OAS-RA-11-17                     September 2011

                                 Department of Energy
                                   Washington, DC 20585

                                      September 19, 2011


MEMORANDUM FOR THE ACTING ASSISTANT SECRETARY FOR ENERGY
               EFFICIENCY AND RENEWABLE ENERGY


FROM:                    George W. Collard
                         Assistant Inspector General
                            for Audits
                         Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on "The Department of Energy's
                         Weatherization Assistance Program under the American Recovery and
                         Reinvestment Act in the State of Tennessee"

BACKGROUND

Under the American Recovery and Reinvestment Act of 2009 (Recovery Act), the Department of
Energy's Weatherization Assistance Program (Weatherization Program) received $5 billion to
increase the energy efficiency of dwellings owned or occupied by low-income persons.
Subsequently, the Department awarded a 3-year, $99 million Recovery Act weatherization grant
to the State of Tennessee. This grant was more than 10 times the $8.9 million available to
Tennessee for weatherization assistance in Fiscal Year (FY) 2009.

Tennessee's Department of Human Services (Tennessee) administers its Weatherization Program
grant through 18 local agencies. Local agencies are responsible for determining applicant
eligibility; performing initial home assessments to determine appropriate weatherization
measures needed; awarding contracts to weatherize homes; and, conducting final inspections of
completed homes. State officials reported that Tennessee had, by September 2010, achieved its
Recovery Act goal of weatherizing more than 10,500 homes.

Given the significant increase in funding and the demands associated with weatherizing
thousands of homes, we initiated this audit to determine if Tennessee had adequate safeguards in
place to ensure the Weatherization Program was managed efficiently and effectively. To
perform our audit, we analyzed Tennessee's management of the Weatherization Program and
reviewed the weatherization activities of three local agencies: East Tennessee Human Resource
Agency, Inc. (ETHRA); Upper East Tennessee Human Development Agency, Inc. (Upper East);
and, Shelby County Community Services Agency (Shelby County).

RESULTS OF AUDIT

Tennessee, while achieving its production goals, had not always ensured the Weatherization
Program was managed efficiently and effectively. Specifically:

       Although prohibited by State and Federal directives, we found that local agency
       contractors installed weatherization measures that may not have been cost-effective. Our
       analysis of 246 energy measures installed in 41 homes revealed only a third were shown
                                                 2


       to meet Department-directed minimum energy savings-to-investment ratios.
       Consequently, we questioned about $100,000 claimed for those measures that were not
       cost-effective;

       Change orders to competitively awarded weatherization work contracts had not been
       approved, as required, prior to completion of the work, and local agencies had not
       ensured that the changes were cost-effective. In our review of documentation supporting
       the weatherization of 68 homes at ETHRA, Upper East and Shelby County, we found on
       at least 40 occasions, energy measures had either been added to or deleted from the
       original planned work. Work order changes were often not approved until the work was
       invoiced and were made without the benefit of competition or a cost-benefit analysis. As
       a result of our test work, we questioned costs associated with the change orders and the
       State subsequently disallowed $15,500; and,

       Several homes at one agency had previously received weatherization services making
       these homes ineligible for additional services. Specifically, we noted that three homes
       had received Federally funded weatherization services after September 30, 1994, a fact
       that made them ineligible for new Recovery Act funded weatherization assistance. Since
       these homes were ineligible for further services, we questioned about $12,000 spent to
       weatherize them.

In addition to our work at the three local agencies, we also observed recurring problems with the
quality of weatherization work across the entire State. During the period from July 2009 to
January 2011, State monitors found 317 of the 879 homes they re-inspected at the local agencies
across the State (about 36 percent) required additional work. In these situations, local agency
inspectors failed to identify problems that were later discovered during State reviews. While
State officials took action to ensure the issues leading to inspection failures were addressed on an
individual home basis, at the time we began our review, they had not initiated action to address
what appeared to be systemic problems related to poor quality work and final agency-level
inspection processes. However, State officials told us they began performing trend analyses
during 2010, and through these actions had identified poor performing contractors and agency
inspectors. The State reports that it is now focusing its re-inspection efforts on those poor
performers.

These problems occurred due to a combination of Program weaknesses, including personnel who
were unfamiliar with the analytical tools used to demonstrate cost-effectiveness of
weatherization measures, inadequate local agency final inspections, and the lack of adequate
controls over work change orders in the State. The observed weaknesses in Tennessee's
Weatherization Program could have posed health and safety risks to residents and likely
increased Program costs. To help avoid similar problems in the future and as the Program
completes its Recovery Act related work, we made a number of recommendations designed to
improve the effectiveness of the Program and decrease the risk of waste, fraud and abuse in
Tennessee's Weatherization Program.
                                                3



MANAGEMENT REACTION


The Department, Tennessee, and the three local agencies reviewed provided responses to our
draft audit report. The Department stated it would continue to assess the State's progress toward
implementing Program improvements. Tennessee noted it would ensure sub-recipients install
only those measures that are allowable and meet or exceed savings-to-investment ratio standards.
The State reported it would continue to conduct final inspections on more than the required five
percent of homes and would ensure that sub-recipients follow the proper change order
procedures. Further, the State will continue to strengthen the Program through ongoing training
sessions with auditors, contractors and agency staff; the development of technical experts;
weekly conference calls; and direct technical support.

The local agencies generally concurred with our findings. One agency stated that the rapid
expenditures of Recovery Act funds prevented the normal learning curve for new auditors and
contractors. However, over time, it had eliminated unsuitable contractors and energy auditors,
and had provided additional training to ensure the quality of weatherization work.

Managements' comments are discussed in more detail in the body of the report and are included
in Appendix 3 in their entirety.

Attachment

cc: 	 Deputy Secretary
      Associate Deputy Secretary
      Acting Under Secretary of Energy
      Chief of Staff
REPORT ON THE DEPARTMENT OF ENERGY'S WEATHERIZATION
ASSISTANCE PROGRAM UNDER THE AMERICAN RECOVERY AND
REINVESTMENT ACT IN THE STATE OF TENNESSEE

TABLE OF
CONTENTS


Weatherization Efforts

Details of Finding ............................................................................................................................1


Recommendations and Comments...................................................................................................9



Appendices

1.    Objective, Scope, and Methodology ......................................................................................13


2.    Related Audit Reports ............................................................................................................15


3.    Management and Auditor Comments.....................................................................................17

THE DEPARTMENT OF ENERGY'S WEATHERIZATION ASSISTANCE
PROGRAM UNDER THE AMERICAN RECOVERY AND REINVESTMENT
ACT IN THE STATE OF TENNESSEE

                                      Weatherization Efforts

                We identified weaknesses in Tennessee's Department of
                Human Services' (Tennessee) Weatherization Assistance Program
                (Weatherization Program) that the State should consider as it
                moves forward. Specifically, we found energy efficiency measures
                that did not meet standards for cost-effectiveness, homes that had
                not been properly weatherized, work change orders that had not
                been properly approved in advance or shown to be cost-effective,
                and weatherization of ineligible homes.

                           Cost-Effectiveness of Weatherization Work

                The East Tennessee Human Resource Agency, Inc. (ETHRA) and
                the Upper East Tennessee Human Development Agency, Inc.
                (Upper East) authorized and reimbursed contractors for the
                installation of energy measures that may not have been cost-
                effective. According to Federal and State directives, only energy
                measures that are cost-effective should be installed, as
                demonstrated by a positive savings-to-investment ratio (SIR).
                Tennessee required its agencies to determine cost-effectiveness, or
                SIR, using the National Energy Audit Tool (NEAT) and
                Manufactured Homes Energy Audit Tool (MHEA). These tools,
                developed by the Oak Ridge National Laboratory and the National
                Renewable Energy Laboratory, calculate the SIR by analyzing the
                cost and potential savings of proposed energy measures.

                We reviewed the NEAT/MHEA analysis supporting the
                weatherization of 46 homes at 3 local agencies, and found that 2
                agencies had installed energy measures in 36 homes that were not
                shown to be cost-effective. One agency, Shelby County
                Community Services Agency (Shelby County), demonstrated that
                its installed energy measures were cost-effective in the five homes
                we reviewed. However, we noted that of the $170,000 spent by
                ETHRA and Upper East for measures at the homes we reviewed,
                about $100,000 was expended for energy measures even though
                the agencies had not ensured that the potential savings for these
                measures exceeded the cost of installation. For example, the
                agencies spent approximately $40,000 on windows for the homes
                we reviewed despite the fact that the State's Weatherization Plan
                cautioned that replacing windows and doors, even when they were
                in a dilapidated condition, was generally not cost-effective in
                reducing energy consumption. The State Plan reminded local
                agencies that the Weatherization Program is an energy



Page 1                                                          Details of Finding
         conservation program, not a housing rehabilitation program.
         Nonetheless, agencies installed windows, even after SIRs
         calculated by the NEAT and MHEA tools demonstrated that the
         installation did not meet cost-effectiveness minimums. We also
         found that the agencies installed other energy measures, such as
         smart thermostats and floor insulation, without adequate
         justification. Specifically:

                At the 31 homes we reviewed that were served by ETHRA,
                we found 116 of 173 (nearly 70 percent) installed measures
                were not shown to have met minimum standards for cost-
                effectiveness; and,

                For 10 homes we evaluated that had been completed by
                Upper East, we identified 48 of 73 (about 65 percent)
                energy savings measures that did not appear to be justified
                based on Tennessee specified minimums for cost-
                effectiveness.

         State officials found similar concerns during desk reviews they
         conducted at 14 of the 18 local agencies. During April and May
         2010 desk reviews, the State evaluated 17 weatherization bid
         solicitations posted by the 3 agencies we reviewed and found 14 of
         those solicitations failed to appropriately identify the cost-
         effectiveness of planned weatherization measures. As a result, the
         State required the agencies re-evaluate the solicitations and ensure
         compliance with policies prior to re-posting the jobs.

         Consistent with our findings in this area, the State's Comptroller of
         the Treasury, Division of State Audit (State Auditor) also reported
         issues concerning the cost-effectiveness of weatherization
         measures in its Fiscal Year (FY) 2010 Single Audit Report (Single
         Audit) issued in March 2011. In particular, the State Auditor
         detailed instances of contractors installing non-weatherization
         measures such as stairs, steps, ramps, and shower surrounds, or
         other items, which did not increase the energy efficiency of the
         home. The State Auditor reported Federal questioned costs of
         about $14,000 associated with these measures. In response to the
         Single Audit, Tennessee officials agreed that sub-recipients had
         inappropriately recommended non-weatherization measures, and
         added that they had already taken steps to recoup the funds.

                           Quality of Weatherization Work

         Our audit also identified recurring problems with the quality of
         weatherization work within the State. Specifically, Tennessee's


Page 2                                                    Details of Finding
         Weatherization Program experienced a significant percentage of
         homes that required further work, sometimes due to poor
         contractor performance, after work was certified as complete.
         Department of Energy (Department) regulations require local
         agencies to conduct a final inspection before the work on a home is
         accepted as complete and require the State to re-inspect at least
         five percent of the homes weatherized and inspected by each local
         agency.

         For the period July 2009 to January 2011, State monitors failed
         317 of 879 homes (or 36 percent) they re-inspected across the
         State, including 42 percent of the 236 homes they re-inspected at
         the 3 agencies we reviewed. State officials found that contractors
         had improperly installed: air infiltration reduction measures; water
         heater insulation; dryer, kitchen and bathroom vents; and, doors.
         As noted earlier, the State is required to re-inspect only five
         percent of the homes weatherized by each of its local agencies.
         Consequently, substandard weatherization work on other homes in
         the State may have occurred without being identified and
         corrected.

         During our observation of inspections of 30 homes conducted by
         ETHRA, Upper East and Shelby County, we noted that 10 of the
         homes (or 33 percent) failed local agency inspections because of
         poor contractor workmanship. Specifically:

                At ETHRA, 4 of 10 homes we observed failed the agency's
                final inspection. The agency failed one home because the
                contractor had not completed all air infiltration reduction
                measures. Another home failed because a window had not
                been properly installed, and the cleaning and repairing of
                the ductwork had not been completed. At the third home,
                the contractor failed to properly install the hot water heater
                discharge pipe. At the fourth home, the contractor had not
                completed air infiltration reduction measures or properly
                insulated a water tank;

                At Upper East, 4 of 10 homes failed the agency's re-
                inspections when these homes were re-inspected at our
                request. Three homes failed because windows and ground
                cover used to prevent seepage and mold had either not been
                properly installed or repaired. The fourth home failed
                because the contractor failed to air seal a cabinet. These
                homes had previously passed the agency's inspections, but




Page 3                                                    Details of Finding
                when re-inspected at our request and in our presence, the
                agency's inspectors noted the problems and failed the re-
                inspection; and,

                At Shelby County, 2 of 10 homes failed the agency's re-
                inspections because the contractors had not properly
                installed windows and doors. Both of the homes had
                passed the agency's inspection, but when re-inspected at
                our request, the agency's inspectors identified problems.

         The local agencies required contractors to correct the deficiencies
         identified by final inspections and re-inspections of specific
         homes. However, unless the underlying causes for problems in the
         quality of weatherization work are corrected on a systemic basis,
         the recipients of weatherization assistance in the State will not
         fully benefit from the expenditure of significant American
         Recovery and Reinvestment Act of 2009 (Recovery Act) funds.

         The State Auditor identified similar quality-of-work issues in its
         Single Audit, identifying weatherization measures that were not
         properly completed by contractors and not properly verified or
         inspected by local agencies. In particular, the State Auditor
         reported that contractors had not completed weatherization
         measures at 24 of the 84 homes visited and had improperly
         completed work at 14 of the homes. The State Auditor concluded
         that local agency energy auditors conducting inspections "failed to
         adequately perform their jobs," passing 28 homes that should have
         failed. The State Auditor reported Federal questioned costs of
         about $23,000 related to these issues. Tennessee officials agreed
         that sub-recipients had not properly completed and verified
         recommended measures, and noted they would ensure resolution of
         issues and recovery of costs incurred.

                     Changes in Planned Weatherization Work

         We also found that the agencies had not ensured work order
         changes were approved prior to completion of the work and that
         the changes were cost-effective. In our review of documentation
         supporting the weatherization of 68 homes at ETHRA, Upper East
         and Shelby County, we found on at least 40 occasions, energy
         measures had either been added to or deleted from the original
         planned work. Work order changes were often not approved until
         the work was invoiced and were made without the benefit of
         competition and in the absence of any cost-benefit analysis. In
         particular:




Page 4                                                   Details of Finding
                Despite policies requiring prior approval, local agencies
                had not documented their approval of work scope changes
                in 18 of the 43 cases we reviewed until after the work had
                been completed. In eight of those cases, local agencies
                approved the change orders at the time the contractors'
                invoices were paid. The agencies told us that contractors
                had been given verbal approval. However, there was no
                documentation of this approval; and,

                The local agencies had not performed savings-to-
                investment analyses when work was added to a contract, so
                the required cost-effectiveness could not be established.

         For example, we noted an ETHRA change order that added three
         energy measures totaling $940. However, ETHRA did not
         perform either a required site visit to authorize the additional
         measures, or a savings-to-investment analysis to determine if the
         change was cost-effective. At our request, the State reviewed the
         change order and found that the agency had approved the change
         order several days after the work was completed. The State
         determined that the change order was not appropriate and
         disallowed the cost of the additional work.
         In another example, ETHRA initiated a change order to install a
         heat pump without performing a NEAT analysis. The contractor
         billed the agency about $5,700 for the heat pump, a cost more than
         double the NEAT library cost and significantly exceeding the
         amount the agency paid for other, comparable heat pumps. When
         we brought this to the State's attention, officials reviewed the
         change order and disallowed the entire cost of the heat pump
         because ETHRA had not performed a required site review to
         authorize the additional expense and had not adequately justified
         the change. We understand that weatherization measures needed
         for a home cannot always be identified in an initial assessment and
         that some changes are reasonable and necessary. However, the
         nature and extent of the change orders we reviewed indicated
         initial assessments may have been insufficient and there was an
         increased risk that contractors could circumvent the cost controls
         inherent in the competitive bidding process. In response to the
         significant number of contract change orders found during our
         audit, the State disallowed about $15,500 in costs incurred by the
         agencies for inappropriate change orders.

         The State Auditor also found payments for change orders had not
         been properly approved, noting that 13 percent of change orders
         reviewed during the Single Audit did not follow the proper



Page 5                                                   Details of Finding
                     procedures. For example, files did not include documentation that
                     an agency representative conducted the required site visit prior to
                     approval of the change order, despite requirements to do so. The
                     State Auditor reported Federal questioned costs of about $7,000
                     related to improperly executed change orders. Tennessee officials
                     agreed that the local agencies had not followed proper procedures
                     for the jobs in question. The State added that it had corrected this
                     issue and taken steps to recover the costs.
                                     Eligibility of Homes Weatherized

                     One agency we reviewed had not ensured homes it weatherized
                     were eligible for those services. Specifically, we identified three
                     homes weatherized by ETHRA that had previously been
                     weatherized, making them ineligible for weatherization assistance.
                     Under the Recovery Act and Departmental requirements, agencies
                     are required to ensure homes weatherized after September 30, 1994,
                     do not receive additional weatherization assistance, unless they had
                     been damaged by fire, flood or act of God and repair or damage to
                     weatherization materials had not been paid for by insurance.
                     ETHRA did not have sufficient procedures in place to determine if
                     the homes had received previous weatherization assistance, and had
                     no evidence that the homes fell into the exception categories that
                     would have allowed for additional weatherization services.
                     Consequently, we questioned about $12,000 spent to weatherize the
                     three homes previously weatherized.

                     The State Auditor, in its Single Audit, also noted that 10 local
                     agencies, including ETHRA and Shelby County, did not have
                     adequate procedures in place to determine whether a dwelling had
                     been weatherized since September 30, 1994. Tennessee officials
                     agreed that the sub-recipients could not always determine when
                     homes had last been weatherized. The State also responded that it
                     is developing a Statewide weatherization system to ensure homes
                     previously weatherized are not incorrectly re-weatherized.
Program Weaknesses   These problems occurred due to a combination of Weatherization
                     Program weaknesses. In particular, we found local agency
                     personnel were unfamiliar with the analytical tools used to
                     demonstrate cost-effectiveness of weatherization measures, local
                     agencies had not always performed adequate final inspections, and
                     the State and its local agencies had not established sufficient
                     controls over work change orders.

                                              Analytical Tools

                     Tennessee required its agencies to use the NEAT/MHEA analytical
                     tools, but did not ensure that the agencies were proficient in the

Page 6                                                                Details of Finding
         application of the tools. ETHRA officials reported to us that they
         were not adequately trained in the use of the cost-benefit analysis
         tools prescribed by the State and further reported they were
         unaware for a year after using the tools that a specific SIR standard
         had to be met. Prior to the Recovery Act, the State allowed the
         agencies to use a checklist to determine which weatherization
         priority measures to install. Subsequent to the Recovery Act and
         in the interest of ensuring a more objective analysis of the cost-
         benefit of energy measures, the State required agencies to use the
         automated NEAT/MHEA systems.

         For the NEAT/MHEA systems to be effective, agencies are
         required to update cost libraries to reflect the price of materials in
         their areas. We found, however, that ETHRA had not maintained
         and periodically updated local cost information, rendering its
         systems' output unreliable. For example, we found the cost of
         procuring and installing a refrigerator was listed as a meaningless
         $1. An ETHRA official acknowledged the agency's cost library
         had not been updated even though the library was a primary tool in
         the NEAT/MHEA analyses. The official stated that the analytical
         tools were difficult to use. An Upper East official also reported
         some NEAT/MHEA data for the agency had been entered
         incorrectly and there was no consistency in its cost library.

         The State recognized deficiencies in the use and application of the
         NEAT/MHEA tools and initiated action to correct the problems we
         identified. Based on the results of its April and May 2010 review,
         Tennessee subsequently provided additional training on energy
         assessments and the use of these tools and mandated that agencies
         use the State library for cost consistency.

                           Local Agency Final Inspections

         Inadequate local agency inspections resulted in issues with the
         quality of workmanship and diminished the ability of officials at
         all levels to identify systemic workmanship and/or pervasive
         management issues. During their re-inspection of homes
         weatherized by local agencies, State monitors found that in
         approximately one of three cases, local agency final inspectors
         passed homes that actually required further action. In other words,
         homes deemed to be completed by local agency officials often had
         significant problems that had not been resolved. At the three
         agencies included in our audit, the inspections we observed were
         thorough. In fact, local agency inspectors we accompanied
         identified significant issues and failed 10 of the 30 homes
         inspected. The State, however, found local agencies often passed



Page 7                                                     Details of Finding
         homes that required further action. Specifically, from July 2009 to
         January 2011, 42 percent of the 236 homes the State re-inspected
         for these three agencies failed re-inspection.

         Additionally, inspections were not consistently performed and
         contractors were not consistently assessed. For example, Upper
         East reported the State's guidance gave direction and
         recommendations on how a measure should be installed or
         repaired; however, in many instances, the guidance left it up to the
         inspectors' interpretations. Upper East stated inspectors'
         interpretations could vary from one inspector to the next. Thus,
         when the inspectors were assessing whether the contractors' work
         was appropriate, different inspectors had varying responses. To
         improve consistency, the State provided additional training to the
         agencies and their inspectors.

         To its credit, during 2010, the State performed trend analyses and
         identified poor performing contractors and agency inspectors. The
         State then focused its re-inspection efforts on those poor
         performers in an effort to identify and correct systemic problems.
         In our review of the State's re-inspection data, we noted that the
         State's efforts had begun to have a positive effect. In particular, we
         noted that in the more recent analysis, the agencies' inspections had
         improved as compared to previous periods. Specifically, the State-
         wide cumulative failure rate decreased from 43 percent in August
         2010 to 36 percent in January 2011.

                               Change Order Controls

         We noted that the State had not effectively limited the agencies'
         change order control authority. In response to the issues we raised
         in the audit, the State stipulated that as of January 2011, work
         added by change orders must be supported by NEAT/MHEA
         analysis and found to be cost-effective, and prior approval must be
         obtained before the contractor performs the work. In addition, the
         State's approval is now required for change orders that increase the
         total cost of the job by 25 percent or more.

                       State Auditor Weatherization Findings

         In addition to the findings discussed above, the State Auditor's
         Single Audit detailed Weatherization Program issues identified at
         local agencies that we did not visit as part of our audit. These
         included inaccurate and unsupported determination of applicant
         eligibility; payments to contractors that differed from original
         bids or invoices; and, energy auditors who lacked required
         certifications. The State Auditor made recommendations to correct

Page 8                                                     Details of Finding
                  identified findings. Tennessee disagreed that it failed to ensure
                  that key controls were in place, but agreed that the sub-recipients
                  responsible for the direct administration of the Program had
                  sometimes lacked proper controls over the Program. Overall, the
                  State Auditor reported $371,770 in total questioned costs for the
                  Tennessee Weatherization Program, of which $186,361 were
                  Federal questioned costs. The State, in its response, disagreed with
                  the amount of Federal questioned costs, stating only $68,017 had
                  yet to be questioned, or disallowed, to sub-recipients.

Impact of         Weaknesses in Tennessee's Weatherization Program can pose
Weatherization    health and safety risks to residents and increase Program costs. In
Problems          the absence of improvement in the management of its
                  Weatherization Program, the State also faces an increased risk of
                  waste, fraud and abuse.

RECOMMENDATIONS   To address the deficiencies we identified during our audit, we
                  recommend the Acting Assistant Secretary for Energy Efficiency
                  and Renewable Energy ensure:

                      1.	 Tennessee takes immediate action to:

                              a.	 Ensure local agencies install only those
                                  weatherization measures that are allowable and
                                  meet or exceed the savings-to-investment ratio
                                  standards;

                              b.	 Expand local agency initial assessment and final
                                  inspection processes to ensure poorly performing
                                  contractors and agency inspectors are identified
                                  and corrective action taken; and,

                              c.	 Ensure compliance with new State requirements
                                  mandating change orders be supported by NEAT/
                                  MHEA analysis; approved by local agencies before
                                  contractors begin work; and, approved by the State
                                  if the total job cost increases by 25 percent or
                                  more.

                      2.	 The questioned costs identified in this report (about
                          $100,000 for energy measures that were not cost-effective,
                          $15,500 for change orders that were not properly
                          approved, and $12,000 for the homes that were re-
                          weatherized) are resolved.




Page 9	                                                         Recommendations
MANAGEMENT AND     The Department, Tennessee, ETHRA, Shelby County and Upper
AUDITOR COMMENTS   East provided responses to our draft audit report which are included
                   in their entirety in Appendix 3. Below is a summary of their key
                   comments and our response.

                                  Management Comments (Department)

                   Department officials concurred with our recommendations and
                   provided an action plan for implementing them. Officials stated
                   that, in response to their concerns and corrective actions, Tennessee
                   had made a number of improvements in implementation of its
                   Weatherization Program. Department officials stated they would
                   continue to assess the State's progress toward implementing these
                   and other Program improvements. Additionally, the Department
                   will: (1) recommend development of more concise implementation
                   guidance; (2) review monitoring plans to ensure they
                   adequately describe the final inspection process; and, (3)
                   review the change order process during monitoring visits and
                   request trend analyses of the incidences of change orders.
                   Further, the Department has already begun its review and
                   resolution of questioned costs.
                               Auditor Response to Department Comments

                   The Department's comments are responsive to our
                   recommendations.

                                      Management Comments (State)

                   Tennessee officials generally concurred with our findings and
                   recommendations, stating they had already taken action to address
                   the issues we identified. For example, the State had developed a
                   more restrictive change order policy that includes a review of
                   change orders during monitoring visits. Further, the State had
                   implemented a plan to audit poor performers at a higher rate; to
                   inspect a higher percentage of jobs for post inspection; and, to delist
                   poor performers. In particular, the State plans to exceed the
                   required minimum 5 percent re-inspection rate and will continue to
                   strengthen the Program through ongoing training with auditors,
                   contractors and agency staff; development of technical experts;
                   weekly conference calls; and, direct technical support. Officials
                   will ensure sub-recipients install only allowable measures that meet
                   or exceed SIR standards and follow proper change order
                   procedures.
                   While State officials agreed that energy measures were not always
                   entered into the NEAT/MHEA correctly, they disagreed with the


Page 10                                                                      Comments
          number of measures we questioned as not being cost-effective.
          Officials stated that after they re-examined the measures, they
          determined that all but six of the measures questioned would have
          been justified. Further, officials disagreed that the State had not
          provided sufficient training in the use of the weatherization tools,
          stating that it had provided a series of training sessions all agencies
          and energy auditors were required to attend.
                          Auditor Response to State Comments

          The State's comments were, in general, responsive to our
          recommendations. We disagree with Tennessee's conclusion that
          all but six of the questioned energy measures were justified. In its
          re-examination, we noted Tennessee officials had re-classified
          nearly half of the questioned energy measures as either health and
          safety measures or as incidental repairs; measures which do not
          require a SIR of one or greater. Tennessee's re-classification of
          energy measures meant that low-scoring measures, even though not
          cost-effective, could still be installed. We performed our analysis
          using the State Plan, which describes those measures considered
          energy measures, and those characterized as health and safety or
          incidental repair. While we acknowledge that, in some cases, a
          measure may fall into either category, for the most part, the State
          Plan is relatively clear. Further, regardless of whether they
          characterized measures correctly or not, the agencies disregarded
          the NEAT/MHEA results, and installed measures despite the
          results. Finally, as previously stated, Department officials have
          begun to review the costs we questioned.

          In regard to the sufficiency of the State's training in the
          NEAT/MHEA audit tools, our report appropriately reflected one
          agency's statements to us that it had not been adequately trained in
          the analytical tools. Our report acknowledges that the State
          recognized deficiencies in the use and application of the tools and
          subsequently provided additional training. However, despite that
          training, we continue to conclude that local agencies were not
          proficient in the use of the tools. This lack of proficiency led to the
          numerous errors that we identified.

                       Management Comments (Local Agencies)

          ETHRA generally concurred with our findings, commenting it had
          used State-provided programs for training and compliance
          directives. The agency detailed that the rapid expenditures of
          Recovery Act funds prevented the normal learning curve for new
          auditors and contractors, and that over time, the agency eliminated
          unsuitable auditors and contractors, thus allowing ETHRA to ensure


Page 11                                                              Comments
          quality of work provided to the clients. Agency officials further
          stated they had recalculated the SIR on a large number of completed
          projects, and had determined the SIR met State guidelines. With
          respect to the measures specifically questioned in our report,
          ETHRA responded that it could not comment on the accuracy of
          those questioned measures, but stated that it disagreed with two
          projects we questioned as not being cost-effective, and with the
          library cost of $1 cited in our report. ETHRA also indicated
          improvements in the implementation and use of the State's
          weatherization database should help address improper re-
          weatherizations. Shelby County generally concurred with our
          findings. Concerning the quality of final inspections, Shelby
          County stated that inspectors were not direct employees of Shelby
          County, but were contract employees trained by the State. As such,
          the agency was unaware of the inspectors' training and abilities, and
          did not have enough staff to adequately inspect and supervise
          contractors' work. Since the audit, agency officials reported they
          had increased the number of auditors and required staff to attend
          additional training. Upper East concurred with our findings as they
          pertained to its operations.

                    Auditor Response to Local Agencies' Comments

          Local agency comments generally affirm our findings and are
          responsive to our recommendations. One agency, ETHRA,
          expressed concern about two projects and the data in the cost
          library. One of the projects was not specifically cited in our report,
          nor was its costs questioned. The other project, a door replacement,
          was characterized by ETHRA as an allowable health and safety
          measure, even though the client file did not indicate such a concern.
          The $1 library cost example cited in our report was for a
          refrigerator, not roof coating as ETHRA stated in its response.




Page 12                                                             Comments
Appendix 1


OBJECTIVE      The objective of the audit was to determine if the State of
               Tennessee had adequate safeguards in place to ensure that the
               Weatherization Assistance Program (Weatherization Program) was
               managed efficiently and effectively.

SCOPE          The audit was performed between April 2010 and August 2011, at
               the Tennessee Department of Human Services (Tennessee) in
               Nashville, Tennessee and at three local agencies: East Tennessee
               Human Resource Agency, Inc. in Knoxville, Tennessee; Upper
               East Tennessee Human Development Agency, Inc. in Kingsport,
               Tennessee; and, the Shelby County Community Services Agency
               in Memphis, Tennessee. The three local agencies reviewed were
               awarded, in total, $29.8 million to weatherize 3,858 homes, and
               represented approximately 30 percent of Tennessee's funding and
               40 percent of the homes to be weatherized.

METHODOLOGY
   To accomplish the audit objective, we:

                      Reviewed applicable laws, regulations, and guidance
                      pertaining to the Weatherization Program under the
                      American Recovery and Reinvestment Act of 2009
                      (Recovery Act); as well as laws, regulations and guidance
                      applicable to Tennessee's Weatherization Program;

                      Interviewed Tennessee officials to discuss current and
                      ongoing efforts to implement the requirements of the
                      Weatherization Program;

                      Reviewed prior Office of Inspector General, Government
                      Accountability Office, State of Tennessee Division of State
                      Audit, and other related reports on the Weatherization
                      Program;

                      Accompanied final inspectors on final and completed
                      inspections and re-inspections, and reviewed past State
                      monitoring reports which evaluated the performance of
                      final inspections; and,

                      Assessed internal controls over the Weatherization
                      Program, including the cost-effectiveness for determining
                      the recommended weatherization measures.

               We conducted this performance audit in accordance with generally
               accepted Government auditing standards. Those standards require
               that we plan and perform the audit to obtain sufficient, appropriate
               evidence to provide a reasonable basis for our findings and



Page 13                                    Objective, Scope and Methodology
Appendix 1 (continued)


                    conclusions based on our audit objective. We believe that the
                    evidence obtained provides a reasonable basis for our findings and
                    conclusions based on our audit objective. The audit included tests
                    of controls and compliance with laws and regulations necessary to
                    satisfy the audit objective. Because our review was limited, it
                    would not necessarily have disclosed all internal control
                    deficiencies that may have existed at the time of our audit. We
                    considered the establishment of Recovery Act performance
                    measures that included certain aspects of compliance with the
                    Government Performance and Results Act of 1993, as necessary to
                    accomplish the objective. We conducted a limited reliability
                    assessment of computer-processed data and we deemed the data
                    sufficiently reliable to achieve our audit objective.

                    Department of Energy management officials waived an exit
                    conference. We held an exit conference with State of Tennessee
                    officials on September 14, 2011.




Page 14                                        Objective, Scope and Methodology
Appendix 2

                                 RELATED AUDIT REPORTS

Under the American Recovery and Reinvestment Act of 2009, the Office of Inspector General
has initiated a series of audits designed to evaluate the Department of Energy's Weatherization
Assistance Program's internal control structures at the Federal, state, and local levels. During our
audits, we have noted similar findings such as deficiencies in agencies' initial assessments and
final inspection processes and poor quality in contractors' work. However, it must be noted that
these issues do not exist in all the states we have audited. Our series of audit reports include the
following:

       Audit Report The Department of Energy's Weatherization Assistance Program Funded
       under the American Recovery and Reinvestment Act for the Commonwealth of Virginia
       (OAS-RA-11-14, August 2011)

       Audit Report The Department of Energy's Weatherization Assistance Program Funded
       under the American Recovery and Reinvestment Act in the State of Indiana (OAS-RA-11-
       13, August 2011)

       Audit Report The Department of Energy's Weatherization Assistance Program under the
       American Recovery and Reinvestment Act in the State of Missouri (OAS-RA-11-12,
       August 2011)

       Audit Report The Department of Energy's Weatherization Assistance Program under the
       American Recovery and Reinvestment Act in the State of West Virginia (OAS-RA-11-09,
       June 2011)

       Audit Report The Department of Energy's Weatherization Assistance Program Funded
       under the American Recovery and Reinvestment Act for the State of Wisconsin (OAS-RA-
       11-07, May 2011)

       Audit Report The Department of Energy's Weatherization Assistance Program under the
       American Recovery and Reinvestment Act for the Capital Area Community Action
       Agency – Agreed-Upon Procedures (OAS-RA-11-04, February 2011)

       Audit Report The Department of Energy's Weatherization Assistance Program under the
       American Recovery and Reinvestment Act for the City of Phoenix- Agreed-Upon
       Procedures (OAS-RA-11-03, November 2010)

       Audit Report Selected Aspects of the Commonwealth of Pennsylvania's Efforts to
       Implement the American Recovery and Reinvestment Act Weatherization Assistance
       Program (OAS-RA-11-02, November 2010)

       Audit Report The State of Illinois Weatherization Assistance Program (OAS-RA-11-01,
       October 2010)




Page 15                                                                    Related Audit Reports
Appendix 2 (continued)


     Audit Report The Department of Energy's Use of the Weatherization Assistance Program
     Formula for Allocating Funds Under the American Recovery and Reinvestment Act
     (OAS-RA-10-13, June 2010)

     Preliminary Audit Report Management Controls over the Commonwealth of Virginia's
     Efforts to Implement the American Recovery and Reinvestment Act Weatherization
     Assistance Program (OAS-RA-10-11, May 2010)

     Special Report Progress in Implementing the Department of Energy's Weatherization
     Assistance Program Under the American Recovery and Reinvestment Act (OAS-RA-10-
     04, February 2010)

     Audit Report Management Alert on the Department's Monitoring of the Weatherization
     Assistance Program in the State of Illinois (OAS-RA-10-02, December 2009)




Page 16                                                           Related Audit Reports
Appendix 3





Page 17       Management Comments
Appendix 3 (continued)





Page 18                   Management Comments
Appendix 3 (continued)





Page 19                   Management Comments
Appendix 3 (continued)





Page 20                   Management Comments
Appendix 3 (continued)





Page 21                   Management Comments
Appendix 3 (continued)





Page 22                   Management Comments
Appendix 3 (continued)





Page 23                   Management Comments
Appendix 3 (continued)





Page 24                   Management Comments
Appendix 3 (continued)





Page 25                   Management Comments
Appendix 3 (continued)





Page 26                   Management Comments
Appendix 3 (continued)





Page 27                   Management Comments
Appendix 3 (continued)





Page 28                   Management Comments
Appendix 3 (continued)





Page 29                   Management Comments
Appendix 3 (continued)





Page 30                   Management Comments
                                                                    IG Report No. OAS-RA-11-17


                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1.	 What additional background information about the selection, scheduling, scope, or
    procedures of the inspection would have been helpful to the reader in understanding this
    report?

2.	 What additional information related to findings and recommendations could have been
    included in the report to assist management in implementing corrective actions?

3.	 What format, stylistic, or organizational changes might have made this report's overall
    message more clear to the reader?

4.	 What additional actions could the Office of Inspector General have taken on the issues
    discussed in this report which would have been helpful?

5.	 Please include your name and telephone number so that we may contact you should we have
    any questions about your comments.


Name 	                                        Date

Telephone	                                    Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://energy.gov/ig

      Your comments would be appreciated and can be provided on the Customer Response Form.
